SERVICE LIST for Brief of Amicus Curiae Michael L. Rosin:
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Appellants Donald J. Trump, President of the United States, et al.
Dale E. Ho
Director, Voting Rights Project
American Civil Liberties Union
125 Broad Street
New York, NY 10004
212-549-2693
dale.ho@aclu.org
Counsel for Appellees New York Immigration Coalition, et al.
Barbara Dale Underwood
Solicitor General
Office of the Attorney General
28 Liberty Street
New York, NY 10005-1400
212-416-8016
Barbara.Underwood@ag.ny.gov
Counsel for Appellees New York, et al.

